Audit of the Job Training Partnership Act
           Out-of-School Youth
 Pilot Demonstration Grant Program for
     Four Final Round Pilot Grantees




                             Office of Inspector General
                             Office of Audit
                             Report No. 06-01-002-03-340
                             Date Issued: March 27, 2001
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees

                                                         Table of Contents

  Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

  Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

  Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

  Objectives, Scope, and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

  AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

             Finding 1             Enrollees’ Participation Rates Have Increased from the
                                   First Round Grantees; Yet, Almost Half of the Enrollees
                                   Were No Longer in Contact With the Program at
                                   the Time of Our Fieldwork. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

             Finding 2             In-School Youth Services/Outcomes May Distort Out-of-School
                                   Youth Demonstration Grants’ Program Performance. . . . . . . . . . . . 14

             Finding 3             The YOA OSY Program’s Performance Reporting Structure Has
                                   Improved Since Our First Round Audit, But Documentation to
                                   Support Enrollees’ Activities and Outcomes Needs to Be Improved. 16

  RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

  DEPUTY ASSISTANT SECRETARY’S RESPONSE TO OUR DRAFT REPORT . . . 23




                                                                         i
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees

                                       Abbreviations
  ACP          Audit Control Point

  CBO          Community-Based Organization

  CFR          Code of Federal Regulations

  DOL          Department of Labor

  ETA          Employment and Training Administration

  GED          General Equivalency Diploma

  GPRA         Government Performance and Results Act

  ISS          Individual Service Strategy

  JTPA         Job Training Partnership Act

  MIS          Management Information System

  OIG          Office of Inspector General

  OSY          Out-of-School Youth

  PIC          Private Industry Council

  PL           Public Law

  RFP          Request for Proposal

  RIGA         Regional Inspector General for Audit

  SDA          Service Delivery Area

  SPIR         Standardized Program Information Report

  WIA          Workforce Investment Act

  YOA          Youth Opportunity Area




                                              ii
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees

                                    Executive Summary

  BACKGROUND

  The Department of Labor (DOL), Employment and Training Administration (ETA),
  awarded its final round of Job Training Partnership Act (JTPA), Title IV, Pilot and
  Demonstration Grant Program funds for the Youth Opportunity Area (YOA), Out-of-
  School Youth (OSY) program in April 1999. These final round grants were awarded to
  five cities -- Denver, San Diego, Oakland, Detroit, and Baltimore -- to improve
  employment prospects for out-of-school youth, ages 16 through 24, in each city’s
  designated low income neighborhood. We reviewed the program structure and activities
  provided a sample of youth for four of the five final round grantees. Oakland, which did
  not receive an operational grant under the Workforce Investment Act (WIA) Youth
  Opportunity (Yo!) program, was not included in our review.

  This audit was a followup to the OIG’s March 22, 2000, report (No. 06-00-002-03-340) on
  the first round YOA OSY pilot demonstration grantees’ performance.

  AUDIT RESULTS

  Enrollees’ participation rates have increased from the first round grantees; yet, almost
  half of the enrollees were no longer in contact with the program at the time of our
  fieldwork.

  The final round pilot grantees we audited better addressed most of the youths’ needs than
  we found in our first audit. Services to high school dropouts also increased, and most of
  their needs were addressed with educational or vocational training activities.

  Although an emphasis of YOA was that program staff was supposed to function as
  mentors and counselors rather than routine case managers, case files evidenced that fewer
  than half of the sampled youth received bona fide counseling. However, our limited
  participant interviews indicated more bona fide counseling and mentoring occurred than
  was evident from the case files.

  If counseling/mentoring is to be reported as a bona fide activity, better documentation is
  needed to support this activity, especially in light of the amount of grant funds that are
  used for this service.

  In-school-youth services/outcomes may distort out-of-school youth demonstration grants’
  results.

  Of our participant sample, 27 percent were attending school (in-school) at time of
  enrollment in the out-of-school demonstration grant programs, including one grantee
  which operated a specific in-school program which targeted youth 14 through 15 years of
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees

  age who were currently in school but at risk of dropping out. In our opinion, any
  performance results reported on the in-school youth could potentially inflate performance
  reporting for the YOA OSY program; e.g., an “attending school” activity could be
  misinterpreted to indicate the program influenced a dropout to return to school.

  Performance reporting systems were improved, but documentation available to support
  those activities/outcomes is deficient.

  All of the sites had automated management information systems (MIS) in place either
  during or subsequent to our fieldwork to capture the necessary data to report the youths’
  activities and outcomes. However, the level of evidence of enrollees’ activities, including
  the extent of their participation, still needs to be increased if the youths’ activities and
  outcomes are to be reported in accordance with the Workforce Investment Act (WIA) and
  the Government Performance and Results Act (GPRA) reporting standards.

  Recommendations:

  We recommend the Assistant Secretary for Employment and Training develop a system of
  management controls that provides reasonable assurance that the competitive WIA-funded
  Yo! Program will result in substantial and demonstrable youth educational gains and
  vocational skills attainment in the grants’ targeted areas. Specifically, we recommend ETA:

  !      Develop documentation standards and guidelines for grantees to help educate
         assigned staff and reinforce ETA expectations for minimum case file evidence of
         youth activities and accomplishments/outcomes.

  !      Assure that separate performance reporting is maintained for Yo! activities,
         accomplishments, and outcomes for in-school as opposed to out-of-school-youth.

  !      Issue guidance to all Yo! program grantees encouraging the grantees to:

         !      Assess each participant’s needs when enrolled, and as necessary throughout
                program participation. This should be a complete formal assessment,
                including participants input into what needs to be done for them to keep
                them actively enrolled until all substantial needs are met.

         !      Provide a wide array of quality services, particularly more vocational training,
                to address the participants’ identified needs, either through WIA funds or
                other available sources (e.g., Pell grants); and

         !      Develop and implement performance incentives to high risk program
                dropouts for major accomplishments.


                                                2
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees

  ETA’s Response to Our Draft Report and Auditor’s Conclusion

  The Deputy Assistant Secretary for Employment and Training was pleased with the
  reported improvements in both enrollee participation rates and performance reporting
  systems. However, he stated that service providers must continue to improve the
  documentation of services participants receive. He also indicated that ETA would work
  with the grantees to improve the documentation and to implement the other
  recommendations.

  We concur with the Deputy Assistant Secretary’s response.




                                              3
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees


                                              Background

  The ETA issued Job Training Partnership Act (JTPA), Title IV, Youth Opportunity Area
  (YOA), Out-of-School (OSY) pilot demonstration grants to 11 cities to serve youth in high
  poverty targeted areas. These grants were issued in three rounds: three grants in round one;
  three in round two; and five in round three.

  The YOA OSY pilot demonstration grants were to provide:

          . . . a structured set of initiatives focused sharply on getting out-of-school youth ages
         16-24 into long-term employment at wage levels that will prevent future dependency.
         The various programs funded under the grant should constitute a coherent strategy for
         serving large numbers of neighborhood youth and raising the employment rate of out-
         of-school youth in the area up to 80 percent. (Source: ETA’s Request for
         Proposal)

  The YOA OSY demonstration grant program was intended to provide services above and
  beyond the formula JTPA youth programs. This program also emphasized coordination
  between all services available to youth (e.g., community-based organizations (CBOs), social
  services, education, etc.). In addition, this program was to emphasize intensive counseling and
  mentoring. Followup services were required and intended to support youth through placement
  in either employment or long-term educational programs.

  The goals for the final round of YOA OSY demonstration grants were to expand employment,
  education, and training opportunities for out-of-school youth ages 16 through 24, with priority
  given to high school dropouts. These goals differ somewhat from the initial round of
  demonstration grants in that they include education and training opportunities for target area
  youth, not solely focusing efforts on employment. However, the goal of 80 percent OSY
  employment rate was still noted in ETA’s Request for Proposal (RFP).

  Although serving in-school youth was added as a component of the WIA-funded Yo!
  competitive operational grants awarded in the spring of 2000, the final round JTPA-funded
  OSY pilot demonstration grants were intended to serve out-of-school youth. It was our
  understanding that, while in-school youth were not to be denied services, they were to be
  served with nongrant funds, and in-school youth performance statistics were not to be included
  with the intended YOA OSY population.

  On March 22, 2000, the Office of Inspector General (OIG) issued Report No. 06-00-002-03-340
  on the results of our audit of the first round YOA demonstration grants. In response to the
  report, ETA agreed the YOA demonstration grant programs needed improvement. However,
  ETA also commented on these pilot grants’ experimental nature and the lessons learned from
  them. ETA indicated that the final round pilot grantees have a much stronger management

                                                     4
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  information system than the initial three sites and stated the initial three sites have improved
  since the period we examined.

  This report presents the results of the performance audit we conducted on four final round
  grantees as a followup to our earlier findings related to the first round YOA grant program.




                                                   5
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
                                    Objectives, Scope, and Methodology

   Our primary audit objectives were to determine whether the OSY pilot demonstration grant
   program was operating as proposed and whether the youth were being served as intended.
   Other subobjectives included:

            ! Are the grantee’s methods of serving youth focused toward providing adequate
              training and educational services which should result in increasing employment
              rates?

            ! Is the counseling/mentoring activity merely case management or bona fide personal,
              ongoing support for the youth through their educational and employment process?

            ! Does the grantee have adequate capability to prepare performance reports that
              account for the activities and outcomes of the enrolled youth?

   Each of the four final round YOA OSY pilot demonstration grantees included in this audit
   received about $2.25 million for the period April 5, 1999, through October 5, 2000. The 4 sites
   included in this audit were selected because they were among the 36 competitive grantees that
   received WIA Yo! operational grants totaling $225 million in the spring of 2000. For each of
   the four sites, we selected an audit sample of 25 participants from the total participants enrolled
   under these grants as of December 31, 1999. Consequently, our audit examined services and
   outcomes for 100 participants, or one-third of the 305 total participants served by the four
   grantees as of
   December 31, 1999. Audit fieldwork began in August 2000.

   We reviewed participants’ files for the sample selected at each location to determine the
   training and counseling activities performed, and reviewed case file documents which
   presumably supported the activities and performance statistics reported to ETA. We reviewed
   the case files to determine how the grantee performed case management and enrollee followup
   activities. We also interviewed participants (14 of 100)1 and examined grantees’ case file
   documentation to determine whether there was coordination between other community-based
   organizations (CBOs) and social service programs necessary to ensure the program was serving
   the clients’ needs. Finally, we reviewed the grantees’ MIS to see how they tracked activities
   under these grants

   We conducted our audit in accordance with Government Auditing Standards for performance
   audits issued by the Comptroller General of the United States.



        1
          At the request of the Assistant Secretary for Employment and Training, we attempted to interview all 100 sampled
participants but the grantees were only able to get 14 participants for these interviews.

                                                               6
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  Audit procedures used to complete the review were not designed or intended to give an
  opinion on the adequacy of internal or program controls covering performance reporting at the
  local, state, or Federal level.

                                            Audit Results

  1. Enrollees’ Participation Rates Have Increased from the First Round Grantees; Yet, Almost
     Half of the Enrollees Were No Longer in Contact with the Program at the Time of Our
     Fieldwork.

  The final round pilot grantees did a better job of addressing most of the youths’ needs than we
  found in our initial audit. Services to high school dropouts also increased (90 percent received
  some type of service); most of the dropouts’ identified needs were addressed with educational
  or vocational training activities. Yet, more than half of our 100 participant sample -- enrolled as
  of December 31, 1999 -- were no longer actively participating in the program as of August 2000,
  and 42 percent of the youth were no longer in contact with their counselors.

  The following analyses are useful in obtaining a preliminary overview of enrollee activities and
  status obtained from the four programs for sampled enrollees through July 2000. (The enrollee
  files were obtained in August 2000).

      A. Specific enrollee activities

  From our 100 sampled enrollees:

          ! 89 (89 percent) enrollees participated in an activity after enrollment (as opposed to
            67 percent in our first round pilot audit).

          ! 74 (74 percent) enrollees received some educational or vocational training (as
            opposed to 50 percent in our first round pilot audit).

 Priority of YOA OSY services was to be given to dropouts. Of the 58 dropouts in our 100
 enrollee sample, 52 participated in one or more program services as follows:

        ! 38 (73 percent) returned to school or participated in a basic skills/GED program (as
          opposed to 39 percent in the first round audit).

        ! 17 (33 percent) participated in a vocational skills training program (as opposed to 11
          percent in the first round audit).

 Table 1 provides enrollees’ educational/training activities -- excluding job referrals, job related
 training, or recreational activities. In some instances, YOA OSY funds did not assist in paying
 for these activities (e.g., work experience and high school enrollment). The enrollees’ files
 frequently did not indicate either the length of time individuals attended school or training or

                                                   7
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
 whether the enrollee actually completed a GED or other training program. Therefore, table 1
 indicates only that the enrollee participated in the activities; it does not measure the level of
 participation or completion. The levels of evidence we used to make the determination of
 enrollees’ activities is discussed in finding 3.

                                                   Table 1
                        Enrollee Educational/Training Accomplishments by Age Group

                                                              Educational/Training Services Received
                                                                                           Participated
                           Received no                                                    in English as           Attended
                           Educational                            Participated in           a Second              Formal
                          or Vocational          Attended             Basic                 Language             Vocational
    Age Group                Training              High            Skills/GED               Training              Training
                                                  School            Program
  18 and Under                  18%                    41%               59%                     2%                  16%
       (51)                     (9)                    (21)              (30)                    (1)                 (8)
       19-21                    38%                    3%                28%                     0%                  41%
        (32)                    (12)                   (1)               (9)                     (0)                 (13)
       22-24                    29%                    (0%)              24%                     0%                  71%
        (17)                    (5)                     (0)              (4)                     (0)                 (12)
  Total Sample                  26%                    22%               43%                     1%                  33%
     (100)2                     (26)3                  (22)              (43)                    (1)                 (33)

    (The numbers in parenthesis denote the actual number of enrollees in the respective
    categories.)

 As shown in table 1, above:

           ! One-third of the sampled enrollees received vocational training after YOA OSY
             enrollment.

           ! Most of the enrollees who attended high school or attended a basic skills/GED
             program were 18 or younger.




       2
           Some enrollees had more than one activity; therefore, the activity totals of all columns exceed 100 enrollees.

       3
           Eleven youth received no services at all.

                                                                 8
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
       ! Seventy-one percent of youth ages 22 through 24 participated in vocational training.
         (This represented a significant increase over the results of our first round audit, in
         which we found 24 percent of youth 22-24 attended vocational training).




                                                9
   Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
          B. The grantees attempted to meet most enrollees’ identified needs

    We examined enrollees’ files to determine what specific services were being provided. Most of
    the case files contained indications of some type of assessment completed for each enrollee. This
    assessment, along with any other indication in the case file, was used to identify specific training
    or employment needs expressed by the youth.

    Of the 100 sampled enrollees, 95 had a training need identified, and 83 (87 percent) of those had
    that need addressed through some type of grant-arranged assistance.

    Table 2, below, shows how often identified enrollee needs were addressed, regardless of the
    amount of the YOA OSY-funded assistance. For example, the need for vocational training was
    identified in 61 cases but only addressed in 32 cases (52 percent).

                                                     Table 2
                                      Services Provided by Age Group
                           For All Sample Enrollees Where the File Identified a Need

 Age          High       Basic Sks                   Voc.            Work       Job Prep.       Job         Recr.         Other
Group        School        GED          ESL          Trng.           Exper.                  Referrals      Act.          Trng.

18 and        78%          81%         100%          32%          100%            65%          59%         100%          100%
Under       (21 of 27)   (29 of 36)    (1 of 1)     (8 of 25)    (11 of 11)     (28 of 43)   (20 of 34)    (9 of 9)      (3 of 3)

19-21         33%          60%          0%           57%          100%            68%          83%         100%          100%
             (1 of 3)     (9 of 15)    (0 of 1)    (13 of 23)    (13 of 13)     (15 of 22)   (24 of 29)   (12 of 12)     (2 of 2)

22-24         0%           67%          0%           85%             100%        82%           76%         100%          100%
             (0 of 1)     (4 of 6)     (0 of 0)    (11 of 13)        (5 of 5)   (9 of 11)    (13 of 17)    (5 of 5)      (5 of 5)

Overall       71%          74%          50%          52%          100%            68%          71%         100%           100%
            (22 of 31)   (42 of 57)    (1 of 2)    (32 of 61)    (29 of 29)     (52 of 76)   (57 of 80)   (26 of 26)    (10 of 10)4



         Although there was evidence in the case files that some form of assessment was performed
         for each enrollee, the type of evidence varied greatly and was minimal in many cases. We
         acknowledged the enrollees as needing the services they were provided, even if there was
         no specific need identified. As compared to our first audit, it appeared the grantees are
         focusing on better serving the youths’ needs.

         We based our needs analysis on any available case file documentation, since there was no
         requirement for the demonstration grant to conduct an enrollee assessment and develop a
         service strategy. For example, one site’s participant application had general questions


             4
             The “other training” category consisted of one youth attending community college, two youth participating in a
   youth leadership program, and seven youth attending support group counseling meetings.

                                                                10
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
   about what training the youth was interested in, and we gave the site credit for completing
   an assessment for the participant.

   We analyzed how the grantees addressed participants’ needs separately for those without
   high school educations (table 3) and those with high school educations or higher (table 4).


                                                      Table 3
                                    Services Provided to Enrollees by Age Group
                                         Less Than High School Graduates

   For the 73 youth with less than a high school educational level with an identified need,5 the
   following services were provided.6

     Age           High                       Vocat. Ed.   Work Exp.       Job Prep. -       Job            Recreation
     Group         School       GED                        Comm. Srvc      Work Read.        Referrals      Activities

     18 and          78%           83%          27%           100%              62%             53%            100%
     Under         (21 of 27)    (30 of 36)    (6 of 22)     (10 of 10)       (24 of 39)      (16 of 30)       (8 of 8)

     19-21           33%          54%           50%           100%              75%             73%            100%
                    (1 of 3)     (7 of 13)     (5 of 10)      (4 of 4)         (9 of 12)      (11 of 15)       (4 of 4)

     22-24           0%            67%          78%           100%              88%             70%            100%
                    (0 of 1)      (4 of 6)     (7 of 9)       (3 of 3)         (7 of 8)        (7 of 10)       (4 of 4)

     Total           71%           75%          44%           100%              68%             62%            100%
                   (22 of 31)    (41 of 55)   (18 of 41)     (17 of 17)       (40 of 59)      (34 of 55)      (16 of 16)


   As table 3 shows, the program attempted to get the youth with less than a high school
   education into needed training.

   Youths for whom a need was identified were enrolled in vocational training at a lower rate
   than any other service. We also noted that for work experience and recreational activities
   few needs were specifically identified in the case files. However, we gave the program
   credit for addressing the need if the youth received the service, even if no need was
   specified. This resulted in the high rates of addressing the need for those two categories.




         5
             One youth was not assessed, thus, no needs were identified for one less than high school sampled enrollee.

         6
            The program also provided one youth with ESL training, and six youth with other training (consisting of participating
in the site’s formal youth recruitment program and attending support groups). Due to the minimal number of youth
participating in these activities and the fact that most of the youths’ needs were met for both categories, they were included in
this footnote and not in the table above.

                                                              11
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
                                                   Table 4
                                 Services Provided to Enrollees by Age Group
                               High School Graduates (or Equivalent) and Above

   For 26 high school graduates with an identified need, the following services were provided.7

                           Basic      Vocational       Work Exp. -         Job Prep.            Job        Recreation
       Age Group           Skills     Education        Comm. Srvc.         Work Read.         Referral     Activities

      18 and Under         0%            67%              100%               100%              100%          100%
                          (0 of 0)      (2 of 3)          (1 of 1)           (4 of 4)          (4 of 4)      (1 of 1)

            19-21         100%           62%              100%                60%              93%           100%
                          (2 of 2)      (8 of 13)         (9 of 9)           (6 of 10)       (13 of 14)      (8 of 8)

            22-24          0%           100%              100%                67%               86%          100%
                          (0 of 0)      (4 of 4)          (2 of 2)           (2 of 3)          (6 of 7)      (1 of 1)

            Total         100%           70%              100%                71%              92%           100%
                          (2 of 2)     (14 of 20)        (12 of 12)         (12 of 17)       (23 of 25)     (10 of 10)


   As shown above, the grantees also attempted to address the needs for those youth with an
   above high school graduate educational level.

        C. Services for dropouts have improved since our last review

   We identified 58 high school dropouts8 from our 100 enrollee sample. Of these 58 youth,
   52 (90 percent) participated in some educational and vocational training activities after
   enrollment:

              !     9 (17 percent) returned to high school.
              !     29 (56 percent) participated in a basic skills/GED program.
              !     1 (2 percent) attended an ESL program.
              !     17 (33 percent) attended some vocational training program.

   As compared to our first round audit, vocational training and educational activities have
   increased for the dropout population in this final round audit. There was evidence in the
   final round sample that 4 of the 17 youth (24 percent) participating in vocational education
   completed the course.




        7
          The program also provided four youth with other training (consisting of one youth attending community college and
three youth attending support groups). Due to the minimal number of youth participating in this activity and the fact that 100
percent of the youths’ needs were met, they were included in this footnote and not in the table above.
        8
            We categorized dropouts as anyone not participating in the traditional school environment.

                                                              12
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  Regarding job-related training and assistance for the 52 dropouts who received services:

         ! 33 (63 percent) participated in job preparation classes.
         ! 31 (60 percent) received job referrals.
         ! 10 (19 percent) participated in work experience activities and/or community
           service    activities.
         ! 2 (4 percent) participated in their site’s formal youth recruitment program.
         ! 4 (8 percent) participated in support groups.
         ! 11 (21 percent) participated in recreational activities.

  The overall participation rates for dropouts in job-related training categories appeared to
  have improved as well. Of the 52 youths participating in an activity, only 6 did so in a job
  preparation and/or job referral activity. Most of the youth participated in another work
  experience and/or hard training activity.

      D. Almost half of the enrollees were no longer in contact with the program at the time
         of our fieldwork

  One emphasis of the YOA program was that program staff was supposed to function as
  mentors and counselors rather than routine case managers. For the four final round
  grantees we audited, we determined that approximately 70 percent of the grantees’
  expenditures as of March 31, 2000, were for (1) administration/overhead costs and (2) case
  managers’ salaries and fringe benefits to provide direct mentoring and counseling services
  to youth. This was not as high as the 85 percent we identified in our earlier audit report of
  the first round YOA program.

  Three of the four grantees contracted with community-based organizations (CBOs) to
  provide training courses in either general job preparation subjects or vocational subjects
  (computer repair, etc.). The fourth grantee provided training accounts for youth to attend
  local community colleges or other vocational schools on an as needed basis. As of March
  2000, direct training costs were 27 percent and support service costs 3 percent of total
  program expenses.

  While there is an emphasis on enrollee counseling/mentoring in the YOA demonstration
  grants and WIA Yo! operational grants to raise the youths’ employment possibilities at a
  liveable wage, we believe more should be done to increase direct training assistance. A
  recent OIG audit of the JTPA Title II-C out-of-school youth program found that both
  participation in, and completion of, occupational skills training activities had a significant
  positive impact on youths’ post-program earnings.

  We reviewed case files for the 100 youth in our sample to determine the extent of their
  contact with program counselors. We found that 48 had received bona fide counseling,
  and 37 were not engaged in the program long enough to warrant follow-up services. We
  defined bona fide counseling as evidence that the case manager went a step beyond routine
  case management (e.g., basic referrals to training). For example, home visits, discussions of

                                                 13
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  personal issues, or counseling with third parties on the youth's behalf were included.
  However, we did not give the program credit if the youth did not respond to the
  counselor's attempts. Additionally, of the 63 youth who were engaged in the program long
  enough to warrant followup services, 35 youth (56 percent) received bona fide followup
  counseling.

  Table 5 below demonstrates whether the case notes for the 100 sample participants
  indicated the counselor had been in recent contact with the youth for any reason. Table 5
  does not, however, address the quality or substance of the counseling provided.


                                                  Table 5
                                  Counselor Contact at Time of Fieldwork
                               Based on Participants’ Case File Documentation

               Level of Contact               Youth Under 18         19-21 Year Olds   22-24 Year Olds   Total

   In contact with counselor within last
   3 months                                          23                       20             10           53

   No counselor contact within last 3
   months                                            26                       11             5            42

   Cannot determine status from case
   file                                               1                       1              1            3

   Deceased                                           0                       0              1            1

   Found to be out of target area                     1                       0              0            1

              Total                                  51                       32             17          100


  As shown above, 53 youths were still in contact with their case manager/counselors as of
  the time of our fieldwork9 (August 2000), and 42 had not had recent contact with their case
  manager/counselors as of that time.




      9
          However, 12 of these youth were not participating in an activity.

                                                             14
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
   2.         In-School Youth Services/Outcomes May Distort Out-of-School Youth
              Demonstration Grants’ Program Performance.

   Of the 100 sampled enrollees, 27 were attending school (in-school) at time of enrollment in
   the OSY demonstration grant program. For our purposes, we defined “in school” as
   attending high school (16 enrollees), attending alternative high school (6 enrollees),10
   attending a GED program (3 enrollees),10 or attending a post high school
   vocational/educational program (2 enrollees) at the time of enrollment.

   ETA’s Request for Proposal (RFP) specified that for these pilot projects Opportunity
   Areas were to be created in target communities to expand employment, education, and
   training opportunities for out-of-school youth ages 16 through 24, with priority given to
   high school dropouts. The RFP specifically stated:

              Youth employment and development activities . . . shall be used for a structured
              set of initiatives focused sharply on getting out-of-school youth ages 16-24 into
              long-term employment at wage levels that will prevent future dependency.
              [Emphasis added.]

   Because including in-school youths’ activities and outcomes with those out-of-school youth
   may distort the OSY demonstration grants’ results, we analyzed the results of all 27 in-
   school youth independently to determine the activities and services received as well as
   outcomes identified and found that 2211 of the 27 youth (81 percent) participated beyond
   initial assessment as follows:

                       !         16 (73 percent) attended high school.
                       !         15 (68 percent) attended basic skills/GED courses.
                       !         3 (14 percent) attended vocational training courses.

   None of the high school activities appeared to be OSY program-funded. One GED
   program appeared to be YOA OSY demonstration funded, but the rest of the activities did
   not. The other vocational training program was an in-school ROTC program.

              Special in-school program

   From our discussions with ETA at the exit conference on our first round audit, it was our
   understanding that while in-school youth were not to be denied services under the YOA
   OSY demonstration grant, they were to be served with nongrant funds and in-school youth
   performance statistics were not to be included with the intended OSY population.

        10
           Youth attending alternative school and GED programs were also considered dropouts by our definition and
included in the dropout statistics reported.

        11
             Some participants participated in more than one activity, so total activities exceeded 22.



                                                                15
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees

  Yet, we discovered one of our four audit sites was operating a specific in-school program
  which targeted youth 14 through 15 years of age who were currently in school but at risk of
  dropping out. This in-school youth program was approved in their grant. The program
  targeted youth already in the school’s FUTURES program, already in existence prior to
  the YOA OSY demonstration grant funding. The FUTURES program consisted of an
  additional basic skills course as part of the youths’ high school curriculum and extra
  counseling/advocate attention. The YOA OSY demonstration grant funded two additional
  counselors to the FUTURES program.

  For this particular site, 13 of the 25 (52 percent) randomly sampled enrollees were
  participants in this special in-school program; consequently, a significant portion of the
  site’s enrollees as of December 31, 1999, were in still in school at the time of enrollment.
  We attribute this high rate of in-school participants to our early sample selection. As of
  December 31, 1999, the grantee had enrolled a disproportionate number of in-school
  youth due to the ease of enrollment. The ETA has informed the OIG that as of December
  31, 2000, in-school youth represented only 17.5 percent of the grantee’s total enrollments.

  While this in-school program was approved in the grant agreement, the program focus
  does not appear consistent with the purpose of the OSY demonstration grant program.

  In our opinion, performance results reported on the in-school youth could potentially
  inflate performance reporting for the OSY demonstration grant program as a whole; e.g.,
  an “attending school” activity could be misinterpreted to indicate the program influenced a
  dropout to return to school when the enrollee never left school.




                                               16
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  3.     The YOA OSY Program’s Performance Reporting Structure Has Improved Since
         Our First Round Audit, But Documentation to Support Enrollees’ Activities and
         Outcomes Needs to Be Improved.

  Based on our review of the four grantees’ program management information systems, we
  determined that the grantees had the overall systems in place to report activities and
  outcomes from a management standpoint; however, the level of documentation available
  to support those activities/outcomes was deficient.

  Our main objective in looking at the reporting system was to determine whether there was
  a system in place, including procedures to report activities and outcomes in a traceable,
  preferably automated, format. We did not specifically test the accuracy of the system back
  to our audit sample; as a result, we cannot conclude as to the accuracy of either the
  information reported for our sampled youth or the systems as a whole.

  Three of the four sites had automated systems which reported the youths’ activities and
  outcomes that were traceable to the participant level, and the performance reports
  submitted to ETA appeared to have been traceable to supporting report schedules. The
  remaining site did not have an automated system; however, at the time of our fieldwork
  they were in the process of implementing the client management system supported by
  ETA. We have subsequently been informed that the system is currently operational and is
  being used for client tracking and reporting.

  In addition to determining whether adequate reporting systems were in place, we looked at
  the sufficiency of the documentation maintained to support activities evidenced in the case
  files. Because these were demonstration grants, we accepted as little as a counselor’s note
  in a file as documentation of a participant’s involvement in an activity. However, as the
  WIA Yo! program becomes fully operational, mere references to an activity in a case note
  will not be sufficient; i.e., the level of evidence of enrollees’ activities, including the extent
  and completion of their participation, needs to be increased if the youths’ activities and
  outcomes are to be reported in accordance with the WIA and the Government
  Performance and Results Act (GPRA) reporting standards.

         A. Assessing whether the grantees addressed enrollees’ needs.

  We based our needs analysis in finding 1 on any available case file documentation, since
  there was no requirement for the demonstration grant to conduct an enrollee assessment
  and develop a service strategy. Although there was evidence in the case files that some
  form of assessments were performed for enrollees, the type of evidence varied greatly and
  was minimal in many cases. We acknowledged the enrollees needed the services they were
  provided, even if there was no specific need identified.




                                                 17
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
          B. Assessing the level of documentation of participants’ activities.

  We classified documentation of youths’ participation in activities into the three following
  categories:

          !          Indication of participation – any notation that the youth may have attended
                     an activity (case notes, MIS form, etc.).

          !          Documented attendance but not completion – evidence of attendance such as
                     sign-in sheets, attendance reports, or counselors’ notes indicating that they
                     observed the enrollees in class.

          !          Documented Completion – completion certificate or formal grade report
                     evidencing successful completion of activity, or a case manager’s file notes
                     clearly indicating the youth completed the activity.

  Table 6 categorizes the degree of documentation to support activities in which the sample
  youth participated.

                                               Table 6
                   Level of Documentation Available Supporting Enrollees’ Activities
                            Based on Participants’ Case File Documentation

                          High     GED -    Vocation    WE/ComS     Job     Recreat   Other
   Level of Evidence     School     B/S      Trng         rvc       Prep     Act.     Trng.   Total

   Indication of          41%       30%      23%            69%     39%      42%      90%     42%
   Participation           (9)       (13)     (7)            (20)    (20)     (11)     (9)    (89)

   Documented             59%       68%      51%            14%     21%      23%      10%     37%
   Attendance but          (13)      (29)     (16)           (4)     (11)     (6)      (1)     (80)
   Not Completion

   Documented              0%       2%       26%            17%     40%      35%      0%      21%
   Completion               (0)      (1)      (8)            (5)     (21)     (9)      0       (44)

            Totals         22        43        31            29      52       26       10      213


  Only an “indication of participation” was evident in the case files for 42 percent of the
  activities. The high school, GED, and vocational training activities were better
  documented than the work experience, job preparation, or recreation activities. However,
  also included in the high school and GED/Basic Skills statistics were the 12 enrollees who
  participated in a designated in-school program, where the level of documentation was
  acceptable in most cases. In general, for the routine out-of-school programs, the level of
  documentation was not as consistent. Most of the “other training” activities consisted of
  indication on an MIS form that the youth attended counseling support groups, but there
  was no other mention in the file that the youth actually attended the activity.


                                                       18
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  For accountability and performance reporting under WIA and GPRA, evidence at an
  “indication of participation” level would not be sufficient to support the activities reported.


         C. Assessing counseling/mentoring documentation.

  Under both YOA demonstration and WIA Yo! operational grants, case management
  (counseling/mentoring) is considered an essential activity rather than an administrative
  function of the program. For this reason, the extent to which case management activities
  are taking place should be captured and reported as a separate activity. However, case
  managers’ salaries are classified as training costs along with vocational training and other
  related activities. As a result, the amount of YOA funds spent on counseling/mentoring
  versus educational and training activities cannot be separately identified from program
  reports.

  In many instances, the counseling/mentoring contact with youth was not evident in the case
  files. We understand the youth may not be receptive to the counselors’ attempts at contact,
  and that counselors’ have legitimate concerns about maintaining client confidentiality.
  However, counselors’ notes about meetings and discussions with the youth should be
  sufficient to demonstrate the extent and nature of the contacts beyond routine case
  management. The notes should document even unsuccessful attempts at contacting the
  youth.

  Our limited participant interviews (14 of 100) indicated that more bona fide counseling and
  mentoring assistance was occurring than was evident in the case files. This may indicate
  that the counselors are not keeping adequate case notes to fully support all the services
  they are providing and for which they should receive credit.

  The YOA OSY demonstration grants we audited were operated under the JTPA. The
  operational Yo! grants are funded by WIA which replaced JTPA. Regardless of the
  enabling legislation, JTPA or WIA, youth programs are ongoing and performance
  outcomes will continue to be reported against established standards. The question to be
  answered is whether the reported outcomes can be validated and relied upon by ETA for
  GPRA reporting.

  The JTPA, Section 165 provides:

         (a) (1) Recipients shall keep records that are sufficient to permit the preparation
         of reports required by this Act. . . .
                                        . . . . . . .
         (c) Each State, each administrative entity, and each recipient . . . receiving
         funds under this Act shall --
                                        . . . . . . .



                                                  19
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
         (2) prescribe and maintain comparable management information systems . . .
         designed to facilitate the uniform compilation, cross tabulation, and analysis of
         programmatic, participant . . . data. . . .
                                         . . . . . . .
         (d) (1) The reports required . . . shall include information pertaining to . . .
                 (B) the activities in which participants are enrolled, and the
                 length of time that participants are engaged in such activities;
                 (C) program outcomes . . . for participants. . . .
                                         . . . . . . .
         (e) The Governor shall ensure that requirements are established for retention of
         all records pertinent to all grants awarded . . . including . . . participant records
         and supporting documentation. . . . [Emphasis added.]

  WIA regulation 20 CFR, Part 667.300(e) provides:

         Annual Performance Progress Report. An annual performance progress report
         for each of the three programs under title I, subpart B is required by WIA sec.
         136(d).
                                        . . . . . . .
                 (2) States submitting annual performance progress reports that cannot be
         validated or verified as accurately counting and reporting activities in accordance
         with the reporting instructions, may be treated as failing to submit annual reports,
         and be subject to sanctions. . . . [Emphasis added.]

  The GPRA requires that program managers establish performance goals and systems to
  verify and validate the numbers reported. The ETA will be using grantee-reported
  outcomes to report the outcomes of the future WIA Yo! programs for GPRA purposes.
  The GPRA states:

         (a) In carrying out the provisions of section 1105(a)(29), the Director of the
         Office of Management and Budget shall require each agency to prepare an
         annual performance plan covering each program activity set forth in the budget of
         such agency. Such plan shall-

                (1) establish performance goals to define the level of performance to be achieved
                by a program activity . . .
                                        . . . . . . .

                (4) establish performance indicators to be used in measuring or assessing the
                relevant outputs, service levels, and outcomes of each program activity;

                (5) provide a basis for comparing actual program results with the established
                performance goals; and



                                                  20
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
                (6) describe the means to be used to verify and validate measured values.
                [Emphasis added.]

  As these criteria demonstrate, JTPA is specific in requiring that documentation to support
  activities and outcomes be maintained, and both the WIA program regulations and the
  GPRA emphasize the necessity of having performance outcomes data that can be
  validated/verified. We found the level of evidence to support YOA and future Yo!
  programs must be improved to meet this validation/verification standard.




                                                21
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees


                                    Recommendations

  We recommend the Assistant Secretary for Employment and Training develop a system of
  management controls that provides reasonable assurance that the competitive WIA-funded
  Youth Opportunity (Yo!) Program will result in substantial and demonstrable educational
  gains and attainment of vocational skills by youth in the targeted areas served by the ETA
  grants. Specifically, we recommend ETA:

  !      Develop documentation standards and guidelines for grantees to help educate
         assigned staff and reinforce ETA expectations for minimum case file evidence of
         youth activities and accomplishments/outcomes. The standards should specifically
         address the level of documentation needed to adequately support reporting
         counseling and mentoring activities.

  !      Assure that separate performance reporting is maintained for Yo! activities,
         accomplishments, and outcomes for in school as opposed to out-of-school-youth.
         ETA should develop reporting standards and monitoring procedures to maintain
         consistent supportable performance reporting which we assume is the case for the
         competitive Yo! grants which provide for serving both in-school and out-of-school
         youth.

  !      Issue guidance to all Yo! program grantees encouraging the grantees to:

         !     Assess each participant’s needs when enrolled, and as necessary throughout
               program participation. This should be a complete formal assessment,
               including participants input into what needs to be done for them to keep
               them actively enrolled until all substantial needs are met.

         !     Provide a wide array of quality services, particularly more vocational training,
               to address the participants’ identified needs, either through WIA funds or
               other available sources (e.g., Pell grants).

         !     Develop and implement performance incentives, including financial
               incentives, if necessary, to high risk dropouts for their major
               accomplishments such as completing high school, obtaining a GED, or
               successfully completing a substantial occupational skills course.

  ETA’s Response to Our Draft Report

  ETA agreed with the need for grantees to better document services participants received
  and indicated ETA would work with the grantees to do so.




                                              22
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees
  Specifically ETA responded:

         !      ETA will prepare a set of guidelines for documentation levels case managers
                need to adequately support counseling and mentoring activities.

         !      The Yo! program MIS currently being implemented separately reports
                activities and outcomes for out-of-school and in-school youth. ETA agrees
                to develop reporting standards and monitoring procedures to maintain
                supportable performance reporting.

         !      ETA agrees to develop guidance to the grantees regarding participant
                assessments and services and work with the grantees to develop a set of
                incentives for high school dropouts.

  ETA also reemphasized the importance of the case managers’ involvement in the program
  as a direct service to the participants.

  Finally, ETA indicated that because of the open door policy of providing services to all
  youth in the areas served by the Yo! program, some participants will drop out, and the
  program may have lower performance outcomes than programs that more carefully screen
  participants.

  Auditor’s Conclusion

  We concur with ETA’s response regarding our recommendations.

  We also concur with ETA’s comments regarding the importance of case managers and the
  hard to serve Yo! program population. However, in our opinion, if the Yo! program
  participants are to attain self-sufficiency -- the ultimate goal of the program -- the grantees
  should find ways to use more grant funds to provide specific vocational training. If more
  direct vocational training were provided, the case manager could function more as a
  counselor/mentor than simply case manager, and fewer participants may drop out.




                                                23
Out-of-School Youth Demonstration Grant Audit - Final Round Grantees




                   DEPUTY ASSISTANT SECRETARY’S
                   RESPONSE TO OUR DRAFT REPORT




                                            24
